Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




Operating Practices Of High-Cost And
  Low-Cost Home Health Agencies




                      @ SERVICE$   ‘ha
                  &
                                      *
              +

         ~.
                                          JUNE   GIBBS BROWN
         ;	                               Inspector   General
         #
          ‘5 ~
            %.
             +--                                 FEBRUARY 1997
                >
              ‘~di+a
                                                  OEI-04-93-00261
              EXECUTIVE                        SUMMARY


PURPOSE

To determine how operating practices of home health agencies may influence the
average number of visits per Medicare beneficiary.

BACKGROUND

Medicare expenditures for home health services have increased from $3.3 billion in
1990 to $15 billion in 1995 -- a nearly 5 fold increase in just 5 years. Expenditures
vary drastically, however, among individual home health agencies (HHAs), as do
average number of visits per beneficia~. The average number of visits per beneficia~
for all Medicare-certified home health agencies increased from 50 in 1993 to 58 in
1994.

In previous OIG studies of home health, we determined that differences in
characteristics of home health agencies, characteristics of beneficiaries served,
diagnoses, and quality did not fully explain the wide variation in utilization among
home health agencies. Agencies with a low average number of visits are providing
appropriate, adequate care as well as those with a high average number of visits.
Under Operation Restore Trust (ORT), the Department of Health and Human
Services k examining the home health industry ;O identify and correct fraud, waste and
abuse. This inspection is part of ORT.

METHODOLOGY

We sent a mail survey to 300 randomly-selected home health agencies throughout the
nation to obtain data on their operating practices and philosophies. About 65 percent
(194) of the 300 agencies we surveyed completed and returned the questionnaire.
Eighty of the respondents were high-cost agencies, and the remaining 114 were low-
cost. High-cost were those agencies whose average number of visits per beneficiary
was above the national average and low-cost agencies were those whose average fell
below the national average. We also performed an analysis of HCFA data to
determine changes in the average number of visits between 1993 and 1994.

FINDINGS

Differences In The Average Number Of Visits Provided By High And LuwCost
Home Health Agencies Widened Considerably Between 1993 And 1994

In 1993, the high-cost home health agencies made 55 more visits (85 visits) per
beneficiary, on average, than did low-cost agencies, which averaged 30 visits. In 1994,
this difference had widened to 69 visits per beneficia~, which is the difference
between 102 visits by high-cost agencies and 33 visits by low-cost agencies.


                                           i
Operating Practices Do Not Explain Widening Variation In Number Of Visits

  b    Both high and low-cost agencies had written policies and procedures.

  b	   High and low-cost agencies’ mission or philosophy statements tended to be
       similar in content.

  w	   High and low-cost agencies relied heavily on their own staff to make the initial
       determination that a person meets eligibility criteria for Medicare home health,
       rather than on physicians.

  ➤    High and low-cost agencies reported serving patients whose conditions were
       acute, chronic, and high-tech, in approximately the same proportion.

  b    Nearly all high and low-cost agencies had a formal quality assurance program.

  b	   High and low-cost agencies provided a similar mix of services, e.g., skilled
       nursing, physical therapy, occupational therapy, speech pathology therapy,
       medical social services, and aide services.

  b	   The major source of payment for high and low-cost home health agencies was
       Medicare fee-for-service.

High-Cost Home Health Agencies Tended To Be For-Profit And Freestanding
Entities

Home health agencies at the higher end of the cost range tended to be for-profit and
freestanding organizations. The percentage of high-cost agencies that were for-profit
entities was almost five times that of low-cost agencies. The percentage of high-cost
home health agencies that were freestanding was four times that for low-cost agencies.

CONCLUSION

The gap between high and low-cost home health agencies in average number of visits
per Medicare beneficiary continues to widen. Generally, program operations are
similar in both high and low-cost agencies and do not explain the variation.

Determining when it is appropriate and medically necessary to provide Medicare
home health services is often ambiguous and largely discretionary. This inspection and
other audits and inspections on home health continue to suggest a need for greater
control over the provision of Medicare home health services. If control cannot be
achieved through more effective management oversight, then statutory or regulatory
changes may be needed to protect the Medicare program from excessive or
inappropriate payments in this area.




                                            ii
                       TABLE                     OF CONTENTS


                                                                                                                    PAGE


EXECUTIVE         suMMARY


INTRODUCTION              . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDINGS        . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...5


 ●Differences     In Average Visits Widened Considerably In One Year                                  ........... 5

 ●operating     Practices Do Not Explain Widening Variation                             .................. 6

 ●   High-Cost HHAs Tend To Be For-Profit And Freestanding                                  . . . . . . . . . . . . . ...9


CONCLUSION            . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...12


APPENDICES


Methodology       . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..A-l


Analysis Of Respondents           Vs. Non-Respondents                 . . . . . . . . . . . . . . . . . . . . . . . . . B-1

                            INTRODUCTION


PURPOSE

To determine how operating practices of home health agencies may influence the
average number of visits per beneficiary.

BACKGROUND

Home health care is nursing, therapeutic, medical social, and aide services provided in
a person’s home. Home health care allows people with limited mobility to live
independently while still receiving professional health care sewices. All home health
services must be specified in a plan of care certified by a physician.

Title XVIII, Section 1861, of the Social Security Act authorized Medicare Part A
payments for home health care. For beneficiaries who do not have Part A
entitlement, home health services may be covered by Medicare Part B. To receive
Medicare reimbursement, home health agencies (HHAs) must provide a skilled care
semice to a homebound beneficiary on a part-time or intermittent basis.

Growth of Home Health Care

Medicare expenditures for home health care increased dramatically in recent years.
To illustrate, between 1990 and 1995 Medicare expenditures for home health care
grew from $3.3 billion to $15.1 billion -- a nearly 5 fold increase in just 5 years.

Between 1992 and 1993, Medicare expenditures for home health care increased by 78
percent. During this period, expenditures for home health care by all insurance
sources in the United States increased by 23.8 percent. In contrast, HCFA’S Office of
the Actuary estimated that the cost of hospital care increased by 6.7 percent between
1992 and 1993. Likewise, expenditures for physician care increased by 5.8 percent
between 1992 and 1993.

Variation in Cost of Care Among Home Health Agencies

Medicare expenditures for home health care per beneficiaries varied significantly
among home health agenciesl in recent years. Importantly, the variation in
reimbursement was not explained by differences in diagnosis, cost per visit, quality of
care, or beneficiary characteristics such as age, gender, and race. Home health
agencies at both extremes of the spectrum of average reimbursement met Conditions




       ‘Variation Among Home Health Agencies In Medicare Payments For Home Health Services   0EI-04-93-




                                                  1

of Participation, which suggests they are doing an adequate job of meeting
beneficiaries’ needs.

Most    of the variation in reimbursement was explained by variations in the number of
home    health visits per beneficiary among home health agencies. Medicare regulations
allow   beneficiaries to receive an unlimited number of home health visits, and some
home    health agencies provided five times more visits per beneficiary on average than
other   home health agencies.

On average, about two thirds of 6803 home health agencies provided home health
care with 33 visits per beneficiary in 1993. The remaining one third of the agencies
averaged 81 visits per beneficiary. The high-visit home health agencies were more
likely to be proprietary, for-profit and unaffiliated.

Concern About High-Cost Home Health Agencies

The wide variation among home health agencies in number of visits per beneficiary
raised serious questions about possible differences in operating policies and practices
of high and low-cost agencies. During a prior inspection, we looked at quality of care,
among other things, of low-cost and high-cost home health agencies. We used the
only available proxies for quality which were and are available from HCFA and other
reliable sources -- complaints against an agency, survey deficiencies, and accreditation
status. With respect to these measures, we found that low-cost home health agencies
provided care that was comparable in quality to that provided by high-cost home
health agencies, but they did so with fewer visits per beneficiary. If the high-cost
agencies lowered the average number of visits per beneficiary to 33, we estimated that
Medicare savings would have been approximately $5 billion in 1995.

This report describes the differences and similarities in operating practices of high and
low-cost home health agencies. The operating practices used by low-cost agencies
might provide examples that high-cost agencies could use to keep cost down without
adversely affecting quality of care.

METHODOLOGY

Sample Selection

We randomly selected 300 Medicare certified home health agencies in the United
States from HCFA’S National Claims History Repository. Before sampling, we
stratified the 1993 universe of 6803 home health agencies into two categories -- low-
cost and high-cost agencies. We based the two categories on average number of visits
made to beneficiaries. We considered home health agencies that made fewer than the
national average of 50 visits per beneficiary in 1993 to be low-cost. We considered
those that made more visits than the national average to be high-cost. We sampled
150 home health agencies from both the high and low groups.



                                             2

A detailed description of our sampling method is contained in Appendix A.

In addition to the survey of home health agencies, we performed an analysis of data
from the common working file maintained by HCFA to determine changes in the
average number of visits from 1993 to 1994.

Data Ccdlection And Analysis

We used a standardized questionnaire to collect data on operating practices of
sampled high and low-cost home health agencies. We mailed our survey instrument to
each of the-300 sampled agencies. About65 percent (194) of the 300 home health
agencies completed and returned our questionnaire. To assure that our analysis was
based on the most current data, we used 1994 utilization data for all home health
agencies appearing in our sample. Of the 194 agencies that responded, 114 (59
percent) were low-cost home health agencies. The remaining 80 respondents, (41
percent) were high-cost agencies.

In terms of average number of visits per beneficiary, the home health agencies that
responded to our survey were representative of the home health agency universe in
the United States. (See Table 1.)



II                                         TABLE 1
                 Comparison Of Sample HHAs To HHAs Nationally
                               Average Number Of Vits    Per Bae6c&y
                                           1994 Data
                                                        Universe                 Sample
                                             Number                %     Number           %
 HHAs Below The National                       4,720               59      114            59
 Average
 HHAs Above The National                       3,246               41      80             41
 Average
 TOTAL HHAs                                    7,966               100     194            100

About 35 percent (106) of the 300 sampled home health agencies did not respond to
our sumey. An analysis of respondents and non-respondents showed that the
possibility of bias due to non-response is limited, based on our sampling criteria. Our
non-response analysis is in Appendix B.

We used a dBase file to organize and analyze numerical data obtained from the 194
home health agencies. We aggregated the data to obtain comparisons of operating
practices of low-cost agencies as a group to those of high-cost agencies as a group.


                                                 3

To compare the philosophy or mission statements of the home health agencies, we
performed a content analysis of those statements. To perform the content analysis we
first examined all of the statements and compiled a list of all major terms, phrases and
concepts. We then grouped the terms, phrases, and concepts into four major
categories. We then aggregated the number of terms, phrases, and concepts in each
of the four major categories for both the high and low-cost groups. We then
performed a statistical significance test on the total “scores” for both groups.

We conducted t-tests on all findings in the report.

To provide a greater sense of what low-cost home health agencies are doing with
regard to operating practices, we performed a case study of seven low-cost home
health agencies. Our findings are shown in a supplemental report, “Operating
Practices Of Low-Cost Home Health Agencies: Seven Case Studies,” 0EI-04-93-
00263.

OPERATION      RESTORE      TRUST

This inspection was part of the President’s Operation Restore Trust initiative. The
purpose of Operation Restore Trust (ORT) is to identify and prevent fraud, waste and
abuse in the Medicare and Medicaid programs. ORT is a joint initiative involving the
Health Care Financing Administration, Administration on Aging, Office of Inspector
General, and various State agencies. In 1995, ORT began targeting home health
agencies, nursing homes, hospices, and durable medical equipment suppliers in five
States for evaluations, audits, and investigations. The five States are Florida, New
York, Texas, Illinois, and California. These States account for about 40 percent of the
nation’s Medicare and Medicaid beneficiaries and program expenditures.




We conducted this inspection in accordance with the Quality Standards for Inspections
issued by the President’s Council on Integrity and Efficiency.




                                             4

                                       FINDINGS


DIFFERENCES IN THE AVERAGE NUMBER OF VISllll PROVIDED                               BY
HIGH AND LOW-COST HOME HEALTH AGENCIES WIDENED
CONSIDERABLY BETWEEN 1993 AND 1994

As reported in our prior report on variation in home health cost among home health
agencies (OEI-04-93-00260),2 the difference in cost per beneficiary is largely explained
by the number of visits an agency makes to a beneficiary.

Figure 1 below shows that the difference in average visits made by high-cost and low-
cost agencies has widened considerably between 1993 and 1994. To illustrate, in 1993
the high-cost agencies made 55 more visits per beneficiary, on average, than did low-
cost agencies. In 1994, this difference had widened to 69 visits per beneficiary.

                                              FIGURE        1


                                 AVERAGE             NUMBER    OF     VISITS
                                BY HIGH            AND  LOW-COST         HHAs

                          # of Vidt=    P-r   Beneflolary
                 120-



                 1oo-

                                              as

                   60-



                   60-



                   40-



                   20-



                     0-
                                       1993                           1994


                           =    LOW-COST           HHA8     =   HIGH-COST    HHA8




       ‘Ibid., Page 16


                                                      5

Nationally, the average cost per beneficiary for home health service was $3,495 in
1994. ~e80high-cost     home health agencies semed72,351 Medicare beneficiafiesat
an average cost of $5,407 in 1994. Conversely, the 114 low-cost agencies sexved
112,996 Medicare beneficiaries at an average cost of $2,270.

OPERATING PRACTICES           DO NOT EXPLAIN WIDENING             VARIATION      IN
NUMBER OF VISITS

High And ImwCost     Home Health Agencies Had Written Policies And Procedures

All of the home health agencies in both the high and low-cost groups had written
policies and procedures. The policies and procedures, which were generally similar in
content and scope, provided guidance on important operating practices such as
determining eligibility for Medicare home health services and other important aspects
of program operations. We observed that the written guidance included criteria for
determining the homebound status of a beneficiary. Further, the eligibility criteria of
the agencies generally mirrored the criteria contained in the Health Care Financing
Administration’s manual for Medicare home health services, the HIM-11 (Health
Insurance Manual), now called the HCFA PUB. 11.

Likewise, 77 of 80 home health agencies in the high-cost group, and all 114 agencies in
the low-cost group had written policies and procedures on monitoring patient services
and progress, and on discharging beneficiaries.

High And Low-Cost Home Health Agencies’ Mission Or Philosophy Statements
Tended To Be Similar In Content

All home health agencies responding to our survey had written statements on their
mission or philosophy for providing home health care. The statements of both high
and low-cost groups of agencies were essentially the same. To illustrate, both groups
emphasized such things as the importance of providing quality care, preventing or
shortening institutionalization, providing a continuum of care after a hospital stay, and
collaborating with other health care providers in the service area or community.

High And Low-Cost Home Health Agencies Relied Heavily On Their Own Staff To
Make The Initial Determination That A Person Meets Eligibility Criteria For
Medicare Home Health SeMces

In making the initial determination that a beneficiary is eligible to receive Medicare
home health services, both high and low-cost agencies used essentially the same
approach. Table 2 shows that both groups of agencies relied most heavily on their
own personnel to make the initial determination that a beneficiary was eligible, rather
than on physicians or others. However, Medicare regulations require that a physician
certify that home health services are appropriate and necessary by signing a Plan of
Care for a beneficiary. A home health agency cannot provide home health services
without a signed Plan of Care.


                                            6
                                           TABLE 2

                        Initial Determination      of Patient Eligibility
  ~&@i&illy    Determines Eligibility             Low-Cost HHAs             High-Cost HHAs
  ,~~r ,~bme ‘Health Services
                                                 Number        %            Number     %
   Physicians                                I         1   I    1      I 3 I           4
   HHA Personnel                             I     96      I   84      I 66 I          83
   Both Physicians & HHA Personnel           I     14      I12I1OI13
   Other (e.g., hospital staff)                        3        3             0        0
   TOTAL                                           114         100            79      100
   No Response To Question                         o                          1


High And Low-Cost Home Health Agencies Reported Senring Patients With Similar
Conditions

Both high and low-cost home health agencies reported that they served patients who
needed acute, chronic, and high-tech home health service. The agencies which
responded to our survey defined acute, chronic and high-tech care as follows. The
definitions of these three categories incorporated length of time a beneficiary is to be
served, stability of a beneficiary’s condition, level of services a beneficiary needs, or a
combination of those factors.

       Acute care: In general, the agencies defined acute care patients as those
       needing short-term, yet intensive services. Such care could be both skilled and
       non-skilled to obtain a stable condition for a patient. Such care typically
       follows a hospital stay or exacerbation of a condition.

       Chronic care: Generally, the agencies defined chronic care patients as those
       needing long-term, less frequent services than acute care to prevent
       exacerbation for a patient whose condition is generally stable.

       High-tech care: The        agencies defined high-tech care patients as those needing
       specialized treatments      and services. Such care includes intravenous therapy,
       complex wound care,        chemotherapy, ventilators, and procedures and services
       carrying a higher risk     and requiring sophisticated skills and training.

The mix    of such patients served by the high and low-cost groups of home health
agencies   we surveyed was about the same (see Table 3). We did not determine
whether    or not the patient mix differences between high and low-cost home health
agencies   were statistically significant.



                                                  7

II                                        TABLE 3

1Condition        Patient Condition
 Mix Served By High And Low-cost HHAs
                                  I
                        I
                 Category        I
     Low-Cost HHAs       I     High-Cost HHAs
                                                                         (Avg. % of Patients)
                                       (Avg. % of Patients)

     Acute                                     62                                59
     Chronic                                    33                               33
                                 I                              1
     High-Tech                                   5                                8
,
     TOTAL                                     100                             100

Nearly All High And Low-Cost Home Health Agencies Had A Formal Quality
Assurance Program

About 98 percent of the 80 high-cost agencies, and 99 percent of the 114 low-cost
agencies that responded to our survey told us they have a quality assurance program.

High And Low-Cost Home Health Agencies Provided A Similar Mix Of SeMces

The percentage of high and low-cost home health agencies providing different types of
home health service was about the same (see Table 4), except for hospice care and a
catch-all category called “other”. A smaller percentage of agencies in the high-cost
group provided hospice care and “other” services than did low-cost agencies.


                                          TABLE 4
                      Percentage Of EEL% ProvidingEach Type Of Semite
                                                              Low-cost              High-Cost
                                                               HHAs                  HHAs
     Nursing
                                                    100                     100
     Physical Therapy
                                              96                   96
     Occupational     Therapy
                                      82                   80
     Speech Pathology Therapy
                                      86                    89
     Medical Social Services
                                       87                    90
     Aide Services
                                              100                     100
     Hospice
                                                       29                     8
     Other (e.g., DME, nutrition counseling)                        35                   10


                                                 8
The Major Source Of Payment For Patients Served By Both High And Low-Cost
Home Health Agencies Was Medicare Fee-For-Semite.

Table 5 summarizes the source of payment for patients served by high and low-cost
home health agencies. Essentially, all operated under a fee-for-service system.
Notably, none of the 80 high-cost agencies said they served Medicare managed care
patients, as compared to 15 percent of the low-cost agencies that do service such
patients.




                                        TABLE 5
     Percentage Of HHAs That Reported Patient Populations XnEach Common
                             Payment Category
IISOURCE OF PAYMENT                 I   114 Low-Cost HHAs   I   80 High-Cost HHAs
 Medicare Fee-For-Service           I           100         I          100               II
 Medicaid                                       89                      83
IIMedicare Managed Care             I           15          I           o
[ Other (e.g., private insurance)               91                      89


A HIGHER PERCENTAGE OF HIGH-COST HOME HEALTH AGENCIES
THAN LOW-COST HOME HEALTH AGENCIES OPEIUTED AS FOR-PROFIT
AND FREESTANDING ENTITIES

We previously reported that home health agencies at the higher levels of the range of

average reimbursement per beneficiary tended to be for-profit, freestanding

organizations .3 The 194 home health agencies that responded to our sumey

confirmed that finding.


The percentage of high-cost home health agencies that were for-profit entities was

almost five times that of low-cost home health agencies (58 percent as compared to 12

percent). This is illustrated in Figure 2.





       3
           Ibid., Page 11


                                            9
                                           FIGURE      2





                        TYPE             OF OWNERSHIP
                   High-Cost             vs. Low-Cost                       HHAs
             80%
                                                              e8.4%


             eos         67.6%




             40%




             20%




               o%
                         HIGH-COST       HHAs           LOW-COST          HHA8


                     _      For-Profit     =    Non-Profit         EEEl   Publio




Figure 3 shows that the percentage of high-cost home health agencies that were

freestanding was four times that for low-cost home health agencies (56 percent as

compared to 13 percent). Freestanding agencies are those that are not at%liated with

or part of another health-care entity, such as a visiting nurses association, a

government or voluntary agency, a rehabilitation facility, a hospital, or a skilled nursing

facility.





                                                10

                                           FIGURE 3





                          HHA      FACILITY    TYPES
                        Affiliated    vs. Freestanding
                       %of   HHA8
               1 00%

                                                               a7%

                80%



                60%                       66%




                40%




                20%




                  o%
                         HIGH-COST          HHA8            LOW-COST       HHA8


                              _      Affiliated         =   Freestanding




For-profit and freestanding home health agencies accounted for much of the
increasing gap in average visits per Medicare beneficiary between high and low-cost
agencies.

Our sample of 194 home health agencies included 60 that operated on a for-profit
basis. In 1994, the 60 for-profit home health agencies averaged 94 visits per
beneficiary while the 134 non-profit and public home health agencies averaged 47.

Likewise, our sample included 60 home health agencies that operated as a
freestanding entity. These agencies averaged 93 visits per beneficiary as compared to
an average of 47 visits per beneficiary for affiliated home health agencies.




                                                  11

CONCLUSION

The gap betsveen high-cost and low-cost home health agencies in average number of

visits per Medicare beneficiary continues to widen. In our previous inspections, we

found that factors such as beneficiary characteristics, agency characteristics, primary

diagnoses, and proxies for quality did not explain the wide variation in average number

of visits per beneficiary made by home health agencies. We have continued to look

for other explanations.


In this inspection, we examined operating policies, procedures, and practices as a

possible explanation for the difference. We found, however, that generally program

operations are similar in high-cost and low-cost agencies. Where we observed minor

differences in operations, they did not explain the differences in average number of

visits per Medicare beneficiary among home health agencies. We have not found an

explanation for the variation in average number of visits. Despite this, we will

continue to analyze this variation in other inspections and to look for explanations.


Determining when it is appropriate and medically necessary to provide Medicare

home health services is often ambiguous and largely discretionary. This inspection and

other audits and inspections on home health services continue to suggest a need for

greater control over the provision of Medicare home health services. If control cannot

be achieved through more effective management oversight, then statutory or

regulatory changes may be needed to protect the Medicare program from excessive or

inappropriate payments in this area.





                                          12

                             APPENDIX                  A


                                   METHODOLOGY

Sample Selection

We randomly selected 300 Medicare certified home health agencies in the United
States from HCFA’S National Claims History Repository. Before sampling, we
stratified the 1993 universe of 6803 HHAs into two categories -- low-cost and high-cost
HHAs. We based the two categories on average number of visits made to
beneficiaries. We considered HHAs that made fewer than the national average of 50
visits per beneficiary in 1993 to be low-cost. We considered those that made more
visits than the national average to be high-cost. We randomly sampled 150 HHAs
from both the high and low strata.

Data Collection And Analysis

We used a standardized questionnaire to collect data on operating practices of

sampled high and low-cost HHAs. We mailed our survey instrument to each of the

300 sampled HHAs. About 65 percent (194) of the 300 HHAs completed and

returned our questionnaire. To assure that our analysis was based on the most current

data, we used 1994 utilization data for all HHAs appearing in our sample. Of the 194

HHAs that responded, 114 (59 percent) were low-cost HHAs. The remaining 80

respondents, (41 percent) were high-cost agencies. In terms of average number of

visits per beneficiary, the HHAs that responded to our sumey were representative of

the HHA universe in the United States. We did not independently verify the data

reported by the respondents.


We used a dBase file to organize and analyze numerical data obtained from the 194

HHAs. We aggregated the data to obtain comparisons of operating practices of low-

cost HHAs as a group to those of high-cost HHAs as a group.


To compare the philosophy or mission statements of the HHAs, we performed a

content analysis of those statements. To perform the content analysis we first

examined all of the statements and compiled a list of all major terms, phrases and

concepts. We then grouped these terms, phrases, and concepts into four major

categories. We then aggregated the number of terms, phrases, and concepts in each

of the four major categories for both the groups, and performed a statistical

significance test on the total “scores” for both the high and low-cost groups.


We conducted t-tests on all findings in the report.





                                           A-1

                               APPENDIX                        B


             AN ANALYSIS OF RESPONDENTS VS. NON-RESPONDENTS


A consideration in surveys of this type is whether the results may be biased by significant
differences between non-respondents and respondents. To determine whether significant
differences exist in this survey, we compared average number of visits per beneficiary by
HHA and size of HHAs. Our analysis revealed no significant difference. Therefore, the
possibility of bias due to non-response is limited.

To test for bias in respondents versus non-respondents, we used a Two-way Contingency
Table Analysis with the Chi-Square Test. We calculated the expected values for
respondent HHAs and non-respondent HHAs assuming that respondent HHAs and non-
respondent HHAs are independent.

For our test of bias by average number of visits per beneficia~ and size of HHAs, we
chose an alpha value of .05 with 1 degree of freedom. That produced a Chi-Square
value of 3.84146.

Our test statistic was .049 for our analysis by average number of visits per beneficiary by
HHA. This leads us to a conclusion that classification of respondent and non-respondent
HHAs are independent by average number of visits per beneficiary.


                           NON-RESPONDEITI’          ANALYSIS

            BY AVERAGE NUMBER OF VISITS PER BENEFICIARY
                      BY HOME HEALTH AGENCY
                                        I Sample          II#of         \#of Non-
                                                            Respondents Respondents
                                        I                 II                I

 HHAs Above the National Mean of            125 (41.7%)
 58 Visits per Beneficiary
                                                          ~
 HHAs Below the National Mean of            175 (58.3%)
 58 Visits per Beneficiary                                ~
 TOTALS                                     300 (loo%)         194 (loo%)       106 (loo%)




                                              B-1

Our test statistic for our analysis by size of HHA was 0.642. This also leads us to a
conclusion that classification of respondents and non-respondents are independent.


                          NON-RESPONDENT ANALYSIS

                     BY SIZE OF HOME HEALXH AGENCY
                                         Sample	         # of            # of Non-
                                                         Respondents     Respondents
 HHAs That Served 500 or Less             102 (34.0%)      64 (33%)       38 (35.8%)
 Medicare Beneficiaries in 1994
 HHAs That Sewed 501 to 999               98 (32.6%)       66 (34%)       32 (30.2%)
 Medicare Beneficiaries in 1994
 HHAs That Served 1000 or More            100 (33.3%)       64 (33%)      36 (34.0%)
 Medicare Beneficiaries in 1994
 TOTALS                                   300 (loo%)      194 (loo%)      106 (loo%)


Our non-response analysis showed, however, that our survey results contained no
significant bias in terms of average number of visits per beneficiary, and size of HHA.




                                            B-2

